                                             OIG Recovery Act Monthly Report

      Monthly Update Report Data (sheet 1 of 2) Version 1.0
                 Reporting OIG: Department of State

            Month Ending Date:    03/31/2009
               Submitter Name: Cynthia Saboe

         Submitter Contact Info: 202‐663‐0367, 
                                 saboec@state.gov
                                               Recovery Act Funds Used on Recovery Act Activity
    Program Source/ Treasury      Program Source/Treasury       Total Funding           Total Obligations        Total Gross Outlays
     Account Symbol: Agency       Account Symbol: Account 
No.           Code                         Code
                             19                       0530               $2,000,000                         $0                         $0




                                             Non-Recovery Act Funds Used on Recovery Act Activity
      Program Source/ Treasury    Program Source/Treasury       Total Funding           Total Obligations        Total Gross Outlays
       Account Symbol: Agency     Account Symbol: Account 
                Code                       Code
  1
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                              State OIG ARRA Monthly Report March 2009.xls
                                                                                                 OIG Recovery Act Monthly Report


      Monthly Update Report Data (sheet 2 of 2)
                                                                                                                         Reporting OIG:
                                                                                                                                          Department of State
                                                                                                                   Month Ending Date:
                                                                                                                                                                                                                          3/31/2009
                                                                                          Recovery Act Funds Used on Recovery Act Activity

No.                                           Short bulleted list of the major actions taken to date                                                            Short bulleted list of the major planned actions

  1   OIG-Oversight-Coordination meeting with IG community on ARRA funding oversight                                                      OIG-Oversight-Coordinate ARRA project fund tracking with GSA OIG
  2   OIG-Oversight-Coordination meeting between GAO and IG community on ARRA funding oversight                                           OIG-Oversight-Review ARRA projects during inspection of A/OPR/RPM
  3   OIG-Oversight-Meetings/discussion with Department (A Bureau) on oversight of ARRA-funded construction projects/other contracts      OIG-Oversight-Review ARRA projects during inspection of A/OPR/FMS
  4   OIG-Oversight-Discussions with GSA/OIG on tracking/oversight of construction-related funding transferred to GSA                     OIG-Oversight-Pre-award audits of ARRA-funded contracts
  5   OIG-Oversight-Provided background information, best practices, on grant contracts/oversight to A Bureau                             OIG-Oversight-Post-award audits of ARRA-funded contracts
  6   OIG-Oversight-Responded to request from Rep. Daniel Issa on OIG oversight activities (provided 2/25/09 oversight plan)              OIG-Oversight-Cost-incurred audits of ARRA-funded contracts
  7   OIG-Oversight-Submitted obligation phasing plan                                                                                     OIG-Oversight-IT security reviews of ARRA-funded IT and cyber projects
  8                                                                                                                                       OIG-Oversight-Feasibility/cost-benefit analyses of ARRA-funded projects
  9                                                                                                                                       OIG-Oversight-Brief ARRA project offices on procurement best practices, fraud awareness
 10
 11
 12
 13
 14
 15
 16
 17
 18
 19
 20
 21




                                                                                        Non-Recovery Act Funds Used on Recovery Act Activity

No.                                           Short bulleted list of the major actions taken to date                                                            Short bulleted list of the major planned actions

  1
  2
  3
  4
  5
  6
  7
  8
  9
 10
 11
 12
 13
 14




                                                                               Office of Inspector General Activities and Accomplishments
      Audits/Inspections/Evaluations/Reviews Initiated                                                                                     Audits/Inspections/Evaluations/Reviews Issued
                               Investigations Initiated                                                                                                             Investigations Closed
        Complaints of Whistleblower Reprisal Initiated                                                                                      Complaints of Whistleblower Reprisal Closed




                                                                                                                                                                                                       State OIG ARRA Monthly Report March 2009.xls
                                            OIG Recovery Act Monthly Report
                       Guidance Statement for Monthly Update Report to OMB

This spreadsheet provides the format to be used by the Office of Inspectors General in reporting
monthly updates to OMB on funding activity relating to the Recovery Act oversight activities. The first
worksheet (Monthly Update) is to report both Recovery Act funding and non-Recovery Act funding
activity directly relating to Recovery Act operations. Information reported on this worksheet is overall
summary level data and should be reported on a cumulative basis.

The second worksheet (Major Actions) reflects Recovery Act major actions, both taken to date and
planned by the OIG. This worksheet is broken out into three major sections. Two sections are for
reporting the Recovery Act major actions -- Recovery Act funding and non-Recovery Act funding.
Examples of major actions could include items such as contracting, hiring, specified audits,
developmental/educational programs, purchases, etc. The third section provides for the reporting of
statistical accomplishments relating to Recovery Act work.




                                                                                                State OIG ARRA Monthly Report March 2009.xls
